                    Performance Audit Report




The SBA Needs to Improve Its Management of the State Trade and Export

                      Promotion Grant Program





                           For Official Use Only
                                 U.S. Small Business Administration

                                     Office of Inspector General

                                       Washington, D.C. 20416



                                                                                       REPORT TRANSMITTAL
                                                                                         REPORT NO. 12-21

DATE:           September 25, 2012

T O:            Dario Gomez
                Associate Administrator for International Trade

SUBJECT:	       The SBA Needs to Improve Its Management of the State Trade and Export Promotion
                Grant Program

This report presents the results of our audit, Review of the Small usiness !dministration’s (S!’s) State
Trade and Export Promotion (STEP) Grant Program. Our objectives were to determine the extent to
which STEP grant recipients are measuring program performance and the results of those
measurements, and to determine the overall management and effectiveness of the program.

We appreciate the courtesies and cooperation of the Office of International Trade and the Grants
Management Office during this audit. If you have any questions concerning this report, please call me at
(202) 205-7390 or Riccardo R. Buglisi, Director, Business Development Programs Group, (202) 205-7489.

                                                   ***




/S/ original signed
John K. Needham
Assistant Inspector General for Auditing
                             The SBA Needs to Improve Its Management of the State Trade and
                             Export Promotion Grant Program


What OIG Audited                                         What OIG Found
This report presents the results of the SBA Office of    Recipients of STEP grants did not implement adequate
Inspector General’s audit, entitled Review of S!’s      metrics by which to measure program performance.
State Trade and Export Promotion (STEP) Grant            In addition, the results of performance measurements
Program. The Small Business Jobs Act of 2010             did not demonstrate whether grant recipients
required the SBA Office of Inspector General to          achieved milestones and remained on track to meet
conduct a review of the STEP Grant Program.              proposed goals. This occurred because OIT personnel
There were two objectives for this audit: 1) to          did not hold STEP grant recipients accountable for
determine the extent to which grant recipients were      meeting reporting requirements. As a result, grant
measuring program performance and the results of         recipients are behind schedule to achieve FY 2011
those measurements and 2) to review the overall          performance goals and have been authorized to
management and effectiveness of the program.             request no cost extensions in order to accomplish
To achieve our objectives, we reviewed the Small         FY 2011 goals and expend federal funds.
Business Jobs Act of 2010 and the FY 2011 STEP
Program Announcement. We also conducted site             Further, SBA personnel did not meet with Congress to
visits and obtained documentation from the recipients    identify and clarify the FY 2011 STEP program
of the five largest STEP grants: California,             measures for success, the first year of the program,
Pennsylvania, Washington, Michigan, and Illinois.        which is contrary to key practices. This information
In addition, we interviewed SBA personnel from the       could have allowed OIT personnel to communicate
Office of International Trade (OIT) and the Office of    intended outcomes to applicants. In addition, OIT
Grants Management (OGM). We also reviewed                personnel could have ensured that grant recipients’
pertinent Codes of Federal Regulation, Federal Public    performance measures included measurable targets,
Laws, and Office of Management and Budget (OMB)          established baselines against which to measure
Circular A-123.                                          performance, and directly corresponded to ongress’
                                                         intentions for the FY 2011 STEP grant program.
OIG Recommendations                                      Without this information, grant recipients and OIT
The OIG recommended a total of nine specific actions,    personnel could not ensure that the STEP program
all of which were addressed to S!’s !ssociate           would have the effect that Congress intended.
Administrator (AA) for International Trade.

We believe that these recommended actions will 
         Additionally, OIT and OGM personnel mismanaged the
improve the accountability and performance of the
       STEP grant program by awarding a grant to an
STEP grant program.
                                     ineligible applicant, providing untimely and inaccurate
                                                         responses to inquiries, and failing to enforce grant
Agency Comments and OIG Response                         terms and conditions. Personnel from the OIT did not
On August 14, 2012, we provided a draft of this report   have the experience or training required to manage
to the OIT for comment. On September 11 and              and administer such a complex grant program.
September 14, 2012, the AA for International Trade       Personnel also relied on inaccurate information,
submitted formal comments on the draft of this           did not conduct adequate oversight, and did not
report. We found that the AA for International Trade     maintain documentation in the grant award files.
did not state whether management concurred or non-       Due to S!’s mismanagement, more than $1 million in
concurred with seven of the nine recommendations.        funding was misspent, grant recipients and SBA
However, management was responsive to seven              personnel were confused about the governance of the
recommendations, partially responsive to one             program, and OIT authorized no cost extensions that
recommendation, and unresponsive to the remaining        directly violate grant terms and conditions.
recommendation.
Table of Contents
Introduction .................................................................................................................................................. 1

Results........................................................................................................................................................... 3

   Finding: Grant Recipients’ Performance Measures Did Not Demonstrate Whether STEP Program Goals
   Were Achievable ....................................................................................................................................... 3

       Grant Recipients Developed Performance Measures That Did Not Meet Federal Standards as 

       Required................................................................................................................................................ 5

       The Results of Grant Recipients’ Performance Measurements Did Not Demonstrate that the STEP

       Grant Program Would Achieve Desired Outcomes .............................................................................. 6

       Personnel from the S!’s Offices of International Trade and Grants Management Did Not Hold
       Grant Recipients Accountable for Reporting Requirements ................................................................ 7

       Meeting with Congress Would Have Been Useful in Determining Specific STEP Program Goals ........ 7

       Conclusion............................................................................................................................................. 8

       Recommendations ................................................................................................................................ 8

   Finding: The S!’s Mismanagement of the STEP Grant Program May Result in the Program Not
   Achieving Intended Results and Misspent Funds ..................................................................................... 9

       The SBA Awarded a STEP Grant to an Ineligible Recipient ................................................................... 9

       The SBA Did Not Effectively Communicate with Grant Recipients....................................................... 9

       The SBA Did Not Hold Grant Recipients Accountable for Grant Terms and Conditions..................... 11

       Inexperience and Inadequate Oversight Resulted in S!’s Mismanagement of STEP Grants........... 12

       Conclusion........................................................................................................................................... 12

       Recommendations .............................................................................................................................. 13

Agency Comments and Office of Inspector General Response .................................................................. 13

Actions Required......................................................................................................................................... 16

Appendix I: Scope and Methodology ......................................................................................................... 17

   Use of Computer Processed Data ........................................................................................................... 17

   Prior Coverage......................................................................................................................................... 17

Appendix II: FY 2011 State Trade and Export Promotion (STEP) Grants Awarded ..................................... 18

Appendix III: Agency Comments ................................................................................................................. 19

           Introduction
           This report presents the results of our audit project, Review of the Small Business
           !dministration’s (S!’s) State Trade and Export Promotion (STEP) Grant Program. The Small
           Business Jobs Act of 20101 required the SBA Office of Inspector General to perform a review of
           the STEP Grant Program. We were required to provide our report to the Committee on Small
           Business and Entrepreneurship of the Senate and the Committee on Small Business of the House
           of Representatives no later than September 30, 2012.

           Objectives

           There were two objectives for this audit: 1) to determine the extent to which STEP grant
           recipients were measuring the performance of the activities being conducted and the results of
           those measurements, and 2) to review the overall management and effectiveness of the STEP
           Grant Program.

           To achieve these objectives, we judgmentally selected all STEP grants exceeding $1 million for
           review. Six grant recipients met this threshold: the states of California, Illinois, Michigan,
           Pennsylvania, Washington, and the Commonwealth of the Northern Marianas Islands (NMI).
           In addition, we reviewed the Small Business Jobs Act of 2010 and the Small Business
           !dministration’s FY 2011 STEP Program Announcement. We also conducted site visits and
           obtained documentation from grant recipients in the states of Pennsylvania, California,
           Washington, Michigan, and Illinois. Further, we interviewed SBA personnel from the Office of
           International Trade (OIT) and the Office of Grants Management (OGM). We also reviewed
           pertinent Codes of Federal Regulation (CFRs), Public Law 111-240, and OMB Circular A-123.

           We conducted this audit from March 2012 to June 2012 in accordance with generally accepted
           government auditing standards. Those standards require that we plan and perform the audit to
           obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
           conclusions based on our audit objectives. We believe that the evidence obtained provides a
           reasonable basis for our findings and conclusions based on our audit objectives.

           Background

           Office of International Trade

           Prior to December 2010, the OIT was a division within S!’s Office of apital !ccess; It was led
           by the Director for International Trade, who reported to the Associate Administrator (AA) for
           Capital Access. The Small Business Jobs Act of 2010 required the SBA Administrator to appoint
           an AA for International Trade no later than December 27, 2010. In conjunction with this new
           position, the OIT’s reporting structure was realigned: the !! for International Trade reported
           directly to the Office of the Administrator. On December 23, 2010, the Administrator approved
           the reorganization that included the formation of the OIT and appointed an AA for International
           Trade in August 2011.



1
    Public Law 111-240, Small Business Jobs Act of 2010, September 27, 2010

                                                         1

           State Trade and Export Promotion Grant Program

           The Small Business Jobs Act of 2010 authorized the SBA to establish the STEP Grant Program as a
           three-year trade and export pilot program. Congress authorized funding of $30 million per year
           in fiscal years (FY) 2011, 2012, and 2013. To execute the program, the SBA awarded grants to
           states with the goal of assisting eligible small business concerns2 with exporting. The objectives
           of the program were (1) to increase the number of eligible small business concerns in the state
           that export, and (2) to increase the export volume of those eligible small businesses that already
           export. The express purpose of the program was to award grants to states to execute export
           programs that assist eligible small business concerns in:

                         participation in a foreign trade mission;

                         a foreign market sales trip;

                         a subscription to services provided by the US Department of Commerce;

                         the payment of website translation fees;

                         the design of international marketing media;

                         a trade show exhibition;

                         participation in training workshops; or

                         any other export initiative determined appropriate by the AA for S!’s Office of 

                         International Trade.


           The Small usiness Jobs !ct of 2010 defined the term “state” to include each of the 50 several
           states, the District of Columbia, the Commonwealth of Puerto Rico, the US Virgin Islands, Guam,
           and American Samoa. The AA for International Trade was responsible for establishing the STEP
           grant program and was given the authority to award each of the 55 eligible recipients’ no more
           than one grant per fiscal year on a competitive basis. In addition, the AA for International Trade
           was required to submit an annual report to Congress. This report must include the number and
           value of grants made under the program in the preceding year, a list of states that received a
           STEP grant, and a list of activities performed under each grant. Further, the report must
           describe the effect that each grant has had on exports of eligible small business concerns.
           The OIT has not provided an annual report to Congress because the first year of the program is
           not yet complete. In addition to establishing the STEP program and awarding grants to eligible
           recipients, the OIT is responsible for the management and oversight of each grant. However,
           the Office of Grants Management (OGM) oversees the financial aspects of the STEP program.

           In FY 2011, OIT awarded 52 STEP grants valued at $29,999,875. For a full list of the FY 2011
           STEP grants awarded, see Appendix II. Between September 17, 2011 and September 30, 2011,
           the SBA obligated FY 2011 single year appropriations to fund the STEP program that states
           executed during FY 2012.




2
    Small business concerns that are eligible to participate in STEP activities must be in business for more than one
    year; operate profitably; demonstrate an understanding of costs associated with exporting; possess a strategic
    plan for exporting; and meet small business size requirements as defined in 13 CFR 121.

                                                            2

        On March 30, 2012, the SBA Office of Inspector General issued an advisory memorandum3,
        in which the audit team determined that STEP grant number SBAHQ-11-IT-0047, awarded to the
        Commonwealth of the Northern Mariana Islands (NMI) and valued at $1,022,781 was
        inappropriate because the NMI did not meet the definition of the term “state” as prescribed by
        the Small Business Jobs Act of 2010. As a result of this memorandum, grant number
        SBAHQ-11-IT-0047 was terminated on March 27, 2012.

        Nature of Limited or Omitted Information

        Our audit included performance results for the first and second quarters of the FY 2011 STEP
        grant program, which was executed throughout FY 2012. Because Congress mandated that we
        provide our report by September 30, 2012, we were unable to include performance results for
        quarters three and four. According to grant recipients, performance results related to export
        sales may not be realized until future years.

        Review of Internal Controls

        The Office of Management and Budget (OMB) Circular A-1234 provides guidance to federal
        managers on improving the accountability and effectiveness of federal programs and operations
        by establishing, assessing, correcting, and reporting on internal controls. It also requires a
        strengthened process for conducting management’s assessment of the effectiveness of internal
        controls over financial reporting based on widely recognized internal control standards.

        We determined that material internal control weaknesses existed in the award and

        management of the STEP grant program. Specifically, the SBA did not:


                maintain documentation to support its rationale for the award of STEP grants ;

                ensure that STEP grant recipients’ goals aligned with ongress’ intent for the STEP

                program ;

                perform adequate reviews of quarterly reports submitted by grant recipients ; and

                enforce STEP grant terms and conditions.


        Implementing our recommendations will improve S!’s award process and overall management

        of the STEP grant program.



        Results

         Finding: Grant Recipients’ Performance Measures Did Not Demonstrate Whether
         STEP Program Goals Were Achievable

        Recipients of STEP grants did not implement adequate metrics by which to measure program
        performance. The results of performance measurements that we reviewed did not demonstrate
        whether STEP grant recipients achieved milestones to ensure that they remained on track to

3
  SBA OIG Advisory Memorandum Number 12-12, The S!’s Office of International Trade Inappropriately Awarded
  a One Million Dollar State Trade and Export Promotion (STEP) Program Grant to an Ineligible Recipient,
  March 30, 2012.
4
  OMB Circular A-123, Management’s Responsibility for Internal ontrol, December 21, 2004

                                                     3

        meet proposed goals. This occurred because OIT personnel did not hold grant recipients
        accountable for meeting established federal and programmatic reporting requirements. As a
        result, STEP grant recipients may fall short of ongress’ expectations and may force S! to
        return a high amount of unexpended STEP funding. Contrary to key performance accountability
        practices, OIT personnel also did not consult with Congress to ensure that STEP grant program’s
        performance goals5 were specific and results-oriented. This prevented SBA personnel from
        discussing performance measures and goals with grant recipients to ensure that they were in
        line with ongress’ intended outcomes.

        The Small Business Jobs Act of 2010 established the STEP grant program’s strategic goals,6 which
        were to increase the number of small businesses that export and increase the export volume of
        those small businesses that already export.

        The FY 2011 STEP Program Announcement and the STEP Grant Notices of Award state that at
        the end of each federal fiscal quarter, grant recipients must provide quarterly Performance
        Progress Reports to SBA program officials. These reports must include financial reports,
        performance narratives, and quarterly data reflecting project activities and results.
        The narrative section of each quarterly performance report must include the following:

                     ! brief summary of the period’s activities, challenges, and accomplishments and
                     success stories;

                     Measurement data and a comparison of actual accomplishments to the goals 

                     established for the reporting period;

                     Any reasons for goals not being met and a proposed plan of action or steps already

                     taken to overcome the identified difficulties;

                     Information relation to actual financial expenditures of budget cost categories 

                     versus the quarterly advance or reimbursement received, including an explanation

                     of any cost overrun;

                     Names of key personnel (those individuals expending 50 percent or more time); and

                     Description of project activities for small business regarding trade and exporting.


        ! grant recipient’s performance measures7 should capture the most important aspects of a 

        program’s objectives. These measures are the indicators that are used to gauge program

        performance and should incorporate targets and timeframes to measure performance. 

        Targets are the quantifiable or otherwise measurable characteristics that determine how

        well a program must be executed in order to achieve performance objectives.

        Appropriate performance measures should include both measurable targets and timeframes.





5
  Performance goals are the target levels of performance expressed as a measurable objective, against which
  actual achievement can be compared; they can be stated as either outcomes or outputs.
6
  Strategic goals are statements of purpose or mission and should be used to develop specific, operational
  performance goals.
7
  Performance measures are the indicators or metrics that are used to gauge program performance and can be
  either outcome or output measures.

                                                       4

Grant Recipients Developed Performance Measures That Did Not Meet Federal Standards as
Required
All five grant recipients that we reviewed developed year-end performance goals for the
FY 2011 STEP grant program. However, none of these STEP grant recipients developed
performance measures that established monthly or quarterly targets or established baselines by
which to measure performance. All STEP grant recipients were also required to develop a chart
of measurable monthly projections for all activities to be performed. These monthly projections
were intended to demonstrate how each grant recipient planned for its STEP program to
progress throughout the year. The annual performance goals for each of the states that we
reviewed were not broken down into monthly or quarterly targets. Therefore, OIT personnel
were not able to accurately determine whether grant recipients were on track to achieve annual
performance goals or fully expend federal STEP funding because the recipients did not develop
targets that could be measured at regular intervals.

None of the five STEP grant recipients that we reviewed established baselines or timelines
against which to measure performance. For example, Michigan’s FY 2011 technical proposal did
not include historical data regarding the number of small businesses involved in exporting or the
markets in which current exporters were involved. In addition, the state relied on its strategic
partners to establish a baseline for export sales; the baseline included small and medium
businesses and could not be verified. However, Michigan developed the following performance
goals: 1) increase the value and volume of exports by 7 percent; 2) increase the number of small
business exporters by 15 percent; and 3) increase the number of new markets for small business
exporters by 25 percent. Without establishing a verifiable baseline for small business export
sales, the number of current small business exporters, and current export markets, it was not
possible for OIT personnel to determine Michigan’s success in these areas. For instance, a
15 percent increase in the number of small business exporters from 100 represents a smaller
increase than a 15 percent increase from 200 small business exporters. In addition, Michigan
did not indicate when they expected to realize export sale increases. According to
representatives from multiple states, export sales may not be realized until future years.
Without providing timelines to realize export sales, OIT personnel could not determine whether
Michigan achieved its performance goal to increase export sales by seven percent.
Establishing baselines and timelines is essential to measuring targets; without them, there is no
way to verify that recipients achieve their performance measures.

The state of Illinois developed performance measures that did not promote the goals of the
STEP grant program. Rather, Illinois’ performance measures focused on increasing the number
of small businesses that receive export assistance from the state’s Office of Trade and
Investment. In addition, the state established goals to provide financial and technical assistance
to small businesses in order to attend trade shows and conduct market research.
These performance measures do not relate to the overarching STEP program strategic goals to
increase the number of small business exporters and to increase the volume of exports for those
small businesses that are already exporting. Providing small businesses with financial and
technical assistance in order to attend trade shows or conduct market research do not align with
the strategic goals of the STEP grant program. However, they are included in the list of activities
a state may conduct in order to meet these strategic goals. In addition, Illinois’ performance
measures did not contain measurable targets. The state used terms such as “significant
expansion” and “direct growth in dollar value of export sales.” These are not measurable

                                            5

           characteristics and did not allow the grant recipient to measure performance in a way that
           would be meaningful to Congress .

           The Results of Grant Recipients’ Performance Measurements Did Not Demonstrate that the
           STEP Grant Program Would Achieve Desired Outcomes
           The first and second quarter reports submitted by the five grant recipients we reviewed did not
           include effectiveness and efficiency information required by the FY 2011 STEP Program
           Announcement and the Notices of Award. For example, none of the quarterly reports that we
           reviewed for California, Illinois, Michigan, Pennsylvania, and Washington contained a
           comparison between estimated and actual accomplishments for the period, as required by the
           program announcement. These five grant recipients did not develop quarterly or monthly
           targets by which to measure performance and therefore, could not compare estimated
           accomplishments with actual accomplishments for a particular period. Without these types of
           comparisons, SBA personnel were unable to determine accurately whether grant recipients
           were on track to achieve annual performance goals.

           Grant recipients estimated the value of federal STEP funds that would be expended in each
           quarter. None of the five states that we reviewed were able to expend their federal STEP funds
           as estimated. For example, in its FY 2011 STEP budget, Pennsylvania estimated that it would
           expend 25 percent of its federal STEP funds in the first quarter. However, in its quarter one
           Performance Progress Report, Pennsylvania had obligated only 1.65 percent of the total STEP
           grant award. Similarly, in its FY 2011 STEP budget, California estimated that it would expend
           50 percent of its federal funding throughout quarters one and two. ontrary to the state’s
           budget submission, representatives from California stated that the majority of STEP-funded
           activities would take place in the third and fourth quarters. The state submitted a single
           reimbursement request for the first two quarters and received only 4.24 percent of the overall
           STEP budget, despite prior indications that 50 percent of the budget would have been
           expended. We determined that the grant recipients that we reviewed were far behind schedule
           in terms of federal funding expenditures.

           In addition to these omissions, we found that the information contained in the grant recipients’
           quarterly reports was insufficient to support STEP program goals and objectives. For instance,
           California, Pennsylvania, Washington, and Michigan categorized participating firms as “Small
           and Medium Enterprises (SMEs).”8On November 8, 2011, the OIT issued a memorandum
           entitled “larification of STEP Grant Issues.” This memorandum included the definition of the
           term “eligible small business concern” as it applies to the STEP program – see footnote 2 on
           page 6 for further clarification. The definition of a STEP “eligible small business concern” does
           not correlate to the definition of an SME. !dditionally, Pennsylvania’s first quarter performance
           report included both the small and large businesses that were scheduled to attend trade shows
           and missions, rather than reporting on only those business concerns that were STEP program
           eligible. According to Pennsylvania representatives, they could not exclude large businesses
           from attending trade shows sponsored by STEP funds because the trade shows were sponsored
           by the state. As a result, Pennsylvania inaccurately reported the results of qualified small
           businesses participating in STEP activities. California, Washington, and Michigan were also


8
    !ccording to the US Department of ommerce’s International Trade !dministration, small and medium
    enterprises (SMEs) are defined as firms with 500 or less employees.

                                                        6

           unable to verify that only eligible small business concerns participated in STEP activities and
           received federal STEP funds.

           Upon reviewing first quarter performance reports, SBA personnel determined that the free-form
           narrative report presented several problems. Grant recipients provided inconsistent
           information, did not fulfill requirements as prescribed by the FY 2011 STEP Program
           Announcement and Notices of Award, and none of the states followed a standard reporting
           format. In response to these issues, OIT personnel developed and distributed a simplified
           spreadsheet to use for future quarterly reports. This template was an improvement over the
           narrative reports, in that it provided a consistent method for each grant recipient to identify
           accomplishments throughout the period and what was planned for subsequent quarters.
           However, the template still did not provide comparisons between estimated accomplishments
           and expenditures with actual accomplishments and expenditures. Without monthly or quarterly
           milestones and baseline data, this report template did not provide SBA personnel with an
           accurate representation of grant recipients’ progress in achieving annual goals and STEP
           program objectives.

           Personnel from the S!’s Offices of International Trade and Grants Management Did Not Hold
           Grant Recipients Accountable for Reporting Requirements
           By applying for and accepting a STEP grant award, states agreed to the terms and conditions of
           both the FY 2011 STEP Program Announcement and the Notice of Award that each received.
           However, STEP grant recipients did not meet the reporting requirements established in these
           documents and SBA officials did not hold them accountable for adhering to the reporting
           requirements. According to three of the grant recipients with whom we met, SBA personnel did
           not provide feedback to the states on the first and second quarter narrative reports.
           Therefore, the SBA did not inform states that they failed to meet established standards for
           quarterly reporting. In addition, most of the grant recipient’s first and second quarter reports
           identified numerous setbacks and challenges but did not include proposed steps or a discussion
           of actions taken to address these problems. Small Business Administration personnel should
           have required grant recipients to propose remedial and corrective actions for problems
           identified in each reporting period. According to OIT personnel, they did not spend enough time
           reviewing quarterly reports. States may have been held accountable for meeting reporting
           requirements and submitting mitigation plans if SBA personnel had performed adequate
           reviews of quarterly reports.

           Meeting with Congress Would Have Been Useful in Determining Specific STEP Program Goals
           The Small Business Jobs Act of 2010 established broad parameters by which the success of the
           STEP grant program should be measured. A key practice that agencies should follow is
           consulting with Congress and other stakeholders to establish a basic understanding of specific
           program expectations and to ensure the credibility and usefulness of performance information.9
           According to OIT personnel, no one from the SBA met with Congressional staff members to
           identify and clarify the STEP program’s measures for success for FY 2011, the first year of the


9
    Government Accountability Office (GAO) Report Number GAO-06-1046, Grants Management: Enhancing
    Performance Accountability Provisions Could Lead to Better Results, September 2006 and GAO Report
    Number GAO-12-621SP, Managing for Results: A Guide for Using the GPRA Modernization Act to Help Inform
    Congressional Decision Making, June 2012.

                                                        7

program. Had SBA personnel consulted with Congress to develop results-oriented goals, the OIT
could have communicated the program’s intended outcomes for states that intended to apply
for FY 2011 STEP grant awards. In turn, this information could have allowed grant applicants to
develop strong performance measures that included measurable targets, established baselines
against which to measure performance, and directly corresponded to ongress’ intentions for
the STEP grant program.

Conclusion
Grant recipients were behind schedule for achieving FY 2011 performance goals. To accomplish
FY 2011 goals and expend federal funds, STEP grant recipients were authorized to request no
cost extensions to perform STEP activities originally proposed for FY 2011 in FY 2012. It is
unclear whether grant recipients will achieve their established goals. Through proper
management, SBA personnel could have prevented the need for no cost extensions of FY 2011
STEP grants by performing adequate reviews of quarterly reports and holding grant recipients
accountable for reporting requirements. Further, due to the S!’s lack of communication with
Congress, STEP program expectations were not well defined. Grant recipients and OIT
personnel did not receive specific guidance as to the desired outcomes of the program and
could not ensure that the STEP program would have the effect that Congress intended.

Recommendations
We recommend that the Associate Administrator for the Office of International Trade:

1.	 Meet with Congress to determine STEP program expectations for FY 2012.
2.	 Ensure that STEP grant recipients’ FY 2012 performance measures align with ongress’
    expectations.
3.	 Require STEP grant recipients to establish and provide the SBA with quarterly milestones
    that will measure effectiveness and efficiency on a quarterly basis.
4.	 In cases where STEP grant recipients do not meet established milestones, require grant
    recipients to provide the SBA with revised work plans and budget estimates to meet
    proposed performance goals.
5.	 Hold STEP grant recipients accountable for adhering to reporting requirements established
    in the Notices of Award and the FY 2012 STEP Grant Program Announcement.




                                           8

 Finding: The SB!’s Mismanagement of the STEP Grant Program May Result in the
 Program Not Achieving Intended Results and Misspent Funds

Small Business Administration OIT and OGM personnel mismanaged the STEP grant program.
For example, SBA personnel awarded a grant to an ineligible applicant, did not provide timely
responses to grant recipient inquiries, and sometimes provided inaccurate information.
In addition, documentation was not properly maintained in the grant award files. Also, SBA
personnel did not have the experience or the training required to manage and administer a
grant program of this magnitude and complexity . Moreover, SBA personnel conducted
inadequate oversight of grantee activities, leaving the STEP program vulnerable to waste.
Due to S!’s mismanagement, STEP funding may be misspent and the program may not achieve
the desired results.

!ccording to the STEP program announcement, S!’s duties, and responsibilities were to ensure
that STEP activities adhered to federal regulations and the STEP program announcement.
To accomplish this task, SBA personnel were required to:

        Ensure federal funds are used effectively and efficiently;

        Provide written approval of contracts supported by project funds;

        Review performance reports and financial records for completeness and accuracy; and

        Conduct mid-year and year-end reviews of programmatic and financial aspects of the 

        State STEP projects.


The SBA Awarded a STEP Grant to an Ineligible Recipient
The Commonwealth of the Northern Mariana Islands (NMI) received a $1,022,781 STEP grant,
despite the fact that the NMI was not an eligible recipient according to the Small Business Jobs
Act of 2010. Officials from the SBA could not provide any rationale for making the award and
stated that former personnel made the decision based on an opinion from S!’s Office of
General Counsel. However, they could not provide any documentation to substantiate
ounsel’s opinion that NMI was an eligible recipient. In response to Advisory Memorandum
Number 12-12, The S!’s Office of International Trade Inappropriately !warded a One Million
Dollar State Trade and Export Promotion (STEP) Program Grant to an Ineligible Recipient
(see footnote 3, page 7), the S! terminated NMI’s STEP grant prior to disbursing any funds.
As a result, the SBA misallocated $1,022,781 of STEP funds that could have been put to better
use by additionally funding the other 51 STEP grant recipients. See Appendix II for a full list of
FY 2011 STEP grant awards.

The SBA Did Not Effectively Communicate with Grant Recipients
The SBA mismanaged the STEP grant program by providing untimely and contradictory
responses to inquiries, failing to enforce grant terms, and conducting inadequate reviews of
recipient submissions. In doing so, the SBA did not fulfill its duty to oversee STEP project
activities and ensure that federal funds were used effectively and efficiently.

Four of the five grant recipients with whom we met stated that SBA personnel failed to respond
to inquiries in a timely manner. For example, the state of Washington submitted its first quarter
request for reimbursement on January 30, 2012 and did not receive approval for payment until
April 26, 2012. During this 87-day span, representatives from the state of Washington

                                             9

        contacted the SBA multiple times and rarely received a prompt response. One month after
        submitting documents for reimbursement, the SBA responded via e-mail, stating that they “have
        not had the opportunity to review these requests;” Similarly, Pennsylvania, Washington, and
        Michigan personnel felt that the SBA was slow to respond to programmatic issues, such as
        adherence to the Fly !merica !ct and clarification on the definition of the term “eligible small
        business concern;”

        In addition to untimely responses, SBA personnel provided grant recipients with contradictory
        information. For example, the state of Pennsylvania had questions regarding reimbursement for
        pre-award costs. Title 2 of the Code of Federal Regulations (CFR) Section 22510 states that grant
        recipients may be reimbursed for pre-award costs; however, the Grant Officer’s Technical
        Representative (GOTR) advised Pennsylvania that it could not be reimbursed for those costs.
        On November 8, 2011, the program manager issued a memorandum that reversed this decision.
        Pennsylvania and Washington also had concerns about the application of the Fly America Act.
        Initially, the SBA advised grant recipients that the Fly America Act did not apply and that
        subgrantees11 could be reimbursed for travel using non-U.S. carriers. After subgrantees
        reserved their flights, SBA personnel revised their position and determined that the Fly America
        Act applied to STEP grant recipients and subgrantees.

        Officials at the SBA also provided contradictory information regarding subgrants. Each of the
        grant recipients indicated that their state intended to subgrant a portion of its STEP funds.
        However, the Notice of Award provided to each grant recipient stated that federal STEP funds
        could not be subgranted. In the OIT’s November 8, 2011 memorandum, “larification of STEP
        Grant Issues,” the SBA further clarified that subgrants were not permissible under the STEP
        program. The memorandum also stated that express statutory authority was required to award
        subgrants and the Small Business Jobs Act of 2010 did not afford STEP grant recipients the right
        to award subgrants.12 Personnel from OIT instructed grant recipients to remove the word
        “subgrant” from their proposals and work plans and substitute it with words such as “stipend”
        and “voucher,” in effect, disguising the action; With S!’s permission, grant recipients changed
        the names of these activities without altering the intent to award subgrants. In doing this, SBA
        personnel provided information that was contradictory to grant terms and conditions and
        advised grant recipients to violate grant terms. In addition, S!’s guidance placed the grant
        recipients at risk of not being reimbursed for subgrants because grant recipients can only be
        reimbursed for costs in accordance with the approved budget and Notices of Award. If the SBA
        intended for the states to award subgrants, the SBA should have modified the Notices of Award
        to allow subgrants.

        Similarly, the Notices of Award allowed the SBA to issue no cost extensions that comply with
        specific provisions. A no cost extension allows the grant recipient to use grant funds beyond the
        expiration date in order to meet the needs established in the technical proposal. However, the
        provision requires extenuating circumstances, such as delays due to a “natural or man-made

10
   2 CFR 225, Appendix B – Selected Items of Cost
11
   13 FR 143;3 defines the term “subgrant” as an award in the form of money made under a grant by a grantee to
   a subgrantee. The term includes financial assistance when provided by contractual legal agreement.
12
   We reviewed federal laws and regulations and could not verify S!’s assertion in the “Clarification of STEP Grant
   Issues” memorandum, dated November 8, 2011. However, the grant terms and conditions prohibited the use of
   subgranting.

                                                        10

           disaster” and states that a grant recipient must not be awarded a follow-on grant to be
           performed during FY 2013; None of the grant recipients met S!’s definition of extenuating
           circumstances and each expects to receive another STEP grant in FY 2012. Contrary to the
           provision, SBA personnel said that they would allow states to use current year funds during the
           following year. In addition, SBA personnel did not take steps to modify grant terms and
           conditions. As a result, OIT personnel are placing grant recipients at risk of losing current
           funding because the grant recipients do not meet the requirements for a no cost extension.

           The SBA Did Not Hold Grant Recipients Accountable for Grant Terms and Conditions
           Grant recipients and SBA personnel signed Notices of Award, agreeing to the terms and
           conditions of the STEP grant. These terms included, but were not limited to: quarterly reporting
           requirements, no cost extensions, contracting and subgranting, and disallowed costs.13
           Personnel at the SBA did not enforce these terms and conditions as stated in the Notices of
           Award. For example, grant recipients were required to provide a written report to the SBA on
           progress made during each of the four quarters of the STEP grant. This report was to include a
           comparison between actual project accomplishments for the quarter and the projected
           accomplishments established for that period. However, none of the quarterly reports that we
           reviewed included this comparison. Personnel at the SBA did not provide feedback to grant
           recipients, nor did they request that quarterly reports be amended to include these required
           comparisons. Further, OIT personnel responsible for program oversight stated they did not
           perform adequate reviews of grant recipients’ quarterly reports.

           Likewise, grant recipients could only be reimbursed for activities conducted in accordance with
           the Notices of Award and approved budgets. Activities conducted outside the parameters of the
           Notices of Award and approved budgets result in disallowed costs and, when paid, are
           considered to be improper payments. Each of the states we reviewed had subgranted a portion
           of the STEP funds received by passing STEP funds to small businesses in order to subsidize trade
           show fees, travel expenses, and translation services. For instance, the SBA reimbursed
           Pennsylvania for trade shows attended by both large and small businesses. During the first
           quarter of performance, Pennsylvania sponsored six large businesses, allowing them to attend
           STEP-funded international trade shows. Rather than requesting a prorated reimbursement
           based on the percentage of small businesses in attendance at each show, Pennsylvania
           requested and received a full-cost reimbursement. Personnel at the SBA approved the
           reimbursement and processed it for payment without questioning these costs. Similarly, Illinois
           held several receptions, during which the state provided small business owners with information
           about the STEP program. However, Illinois’ Notice of Award prohibits the use of STEP funding
           for any entertainment costs, receptions, or other social activities. Again, officials at the SBA
           disregarded the parameters established by the Notice of Award and approved Illinois’ request
           for advance. Each of the states’ reimbursement and advance requests for quarter one were
           paid in full, despite the fact that four of the five included disallowed costs.




13
     2 FR 215;2 defines the term “disallowed costs” as those charges to an award that the federal awarding agency
     determines to be unallowable, in accordance with the applicable federal cost principles or other terms and
     conditions contained in the award.

                                                          11

           Inexperience and Inadequate Oversight Resulted in S!’s Mismanagement of STEP Grants
           Inexperience and limited training contributed to the mismanagement of the STEP grant
           program. The OIT was established on December 23, 2010 as an independent office with a direct
           chain of reporting to the SBA Administrator. The OIT had never administered a grant program
           and most personnel were unfamiliar with the laws and regulations that govern grants.
           In addition, OIT personnel assigned to the STEP program did not receive training or obtain GOTR
           certifications. Further, OGM personnel stated that none of the individuals assigned to the STEP
           program had managed this type of grant in the past, including the Grants Management Officers
           (GMOs).14 Because of their inexperience and inadequate training, SBA officials provided
           inconsistent and untimely direction to grant recipients.

           In addition, GOTRs inappropriately recommended payment for costs outside the scope of the
           grant terms and conditions, which may have led to a bottleneck for reimbursement and advance
           request approval. Grant management officers were each responsible for 150-200 grants, which
           did not allow them sufficient time to conduct thorough reviews of recipients’ requests for
           advance or reimbursement. Because GOTRs conducted insufficient reviews of advance and
           reimbursement requests, GMOs were forced to repeat the review process in order to correct
           mistakes. This added considerable time to the payment process, which according to one GMO,
           already included a lag time of six to eight weeks.

           Another contributing factor in the mismanagement of the STEP program was S!’s inadequate
           oversight. State representatives indicated that SBA personnel have not conducted any site visits
           or reviews related to the STEP grant program. According to an OIT official, GOTRs did not
           perform a detailed review of quarterly reports and requests for advance and reimbursement.
           This same official indicated that oversight was conducted based on trust between the GOTR and
           the grant recipient. Had SBA conducted adequate oversight, SBA officials might have
           determined that grant recipients were being reimbursed for disallowed costs and were behind
           schedule. In addition, SBA personnel could have directed grant recipients to take appropriate
           action to expend STEP funds in accordance with grant terms and conditions and accelerate the
           schedule.

           Conclusion
           The SBA misallocated $1,022,781 in STEP funds by awarding a grant to the NMI, which was not
           an eligible recipient. These funds could have been put to better use by additionally funding
           eligible grant recipients’ programs. Instead, the SBA will likely return the funds to the US
           Department of the Treasury because the funds expire on September 30, 2012. This would
           defeat ongress’ intent to award $30 million to eligible STEP grant recipients. Had S!’s Office
           of International Trade been more experienced with grant program management, they may have
           recognized many of the program’s shortcomings. Experienced grant personnel also could have
           been more responsive and consistent in their communications with STEP grant recipients,
           leading to a more effective and efficient program. However, inconsistent interpretations of the
           Notices of Award, the FY 2011 STEP Program Announcement, and the Code of Federal


14
     The Grants Management Officer (GMO) is the SBA official with delegated authority to obligate federal funds by
     signing the Notice of Award. According to the STEP grant program GMOs, they are responsible for monitoring
     and administrating all financial aspects of the STEP grants, including payment of advance and reimbursement
     requests.

                                                          12

Regulation (CFR) appear to have created confusion for grant recipients and SBA personnel.
Further, S!’s mismanagement has caused OIT to authorize grant recipients to request no cost
extensions contrary to the grant terms and conditions.

Recommendations
We recommend that the Associate Administrator for International Trade:

6.	 Document and maintain all analyses, evaluations, and rationale used to award STEP grants.
7.	 Provide Grant Officers Technical Representative (GOTR) training to OIT personnel acting in
    that capacity.
8.	 Establish and implement a policy requiring GOTRs to conduct in-depth reviews of STEP grant
    recipients’ quarterly submissions and provide feedback to grant recipients;
9.	 Consult with the Office of Grants Management (OGM) to modify STEP grant terms and
    conditions to align with S!’s management of the program.

Agency Comments and Office of Inspector General Response
On August 14, 2012, we provided a draft of this report to the S!’s Office International Trade
(OIT) for comment. On September 11 and September 14, 2012, the Associate Administrator
(AA) for International Trade submitted formal comments, which are included in their entirety in
Appendix III. The AA for International Trade acknowledged the cooperative relationship
established between the OIG and the OIT. In addition, the AA for International Trade stated that
the OIG’s recommendations will improve program administration, increase grant recipients’
financial accountability, increase the number of small businesses that export, and increase the
value of exports for small businesses that are currently exporting. In many cases, the OIT had
already taken action to mitigate issues and improve S!’s management of the STEP grant
program; however, the AA for International Trade did not state whether management
concurred or non-concurred with seven of our nine recommendations. We consider
management comments to be responsive to seven recommendations, partially responsive to
one recommendation, and unresponsive to the remaining recommendation. A summary of
management’s comments and our response follows.

Recommendation 1 – Meet with Congress to determine STEP program expectations for
FY 2012.

Agency Comments

According to the AA for International Trade, OIT personnel have met with House and Senate
staff members to discuss FY 2012 STEP program expectations. Specifically, the AA for
International Trade met with staff members from the House and Senate Small Business
Committees in the fall of 2011 and the summer of 2012. In addition, the SBA hosted a
congressional panel, which included staff members from the House and Senate Small Business
Committees, during the STEP Best Practices Conference in February 2012. During these
meetings, House and Senate staff provided feedback on the FY 2011 STEP program, its
legislative history, and FY 2012 performance expectations. Further, OIT staff solicited ideas on
specific performance metrics that the STEP program should be measuring. These dialogues have
informed the implementation of the program.


                                          13

OIG Response

We consider management comments to be responsive to our recommendation.

Recommendation 2 – Ensure that STEP grant recipients’ FY 2012 performance measures align
with ongress’ expectations.

Agency Comments

The AA for International Trade stated that the OIT intends to modify the STEP program reporting
requirements during the first quarter of FY 2013 in order to ensure that they align with
ongress’ expectations.

OIG Response

We consider management comments to be responsive to our recommendation.

Recommendation 3 – Require STEP grant recipients to establish and provide the SBA with
quarterly milestones that will measure effectiveness and efficiency on a quarterly basis.

Agency Comments

The AA for International Trade stated that when the OIT became aware of our concerns, the
reporting process was modified to reflect accomplishments against milestones. In addition, the
OIT plans to aggressively enforce the new process in the upcoming year.

OIG Response

We consider management comments to be responsive to our recommendation.

Recommendation 4 – In cases where STEP grant recipients do not meet established
milestones, require grant recipients to provide the SBA with revised work plans and budget
estimates to meet proposed performance goals.

Agency Comments

In cases where STEP grant recipients do not meet established milestones, OIT staff members
plan to require grant recipients to provide the SBA with revised work plans to meet new
performance goals. In the future, the OIT will also require grant recipients to provide new
budget estimates, as necessary.

OIG Response

We consider management comments to be responsive to our recommendation.




                                          14

Recommendation 5 – Hold STEP grant recipients accountable for adhering to reporting
requirements established in the Notices of Award and the FY 2012 STEP Grant Program
Announcement.

Agency Comments

According to the AA for International Trade, OIT staff members will research the grant
regulations at 13 CFR 143 and 2 CFR 225 in order to ensure compliance.

OIG Response

We consider management comments partially responsive to our recommendation.
While ensuring compliance with grant regulations is both important and necessary to the
success of the STEP grant program, the grant Notices of Award and the STEP Grant Program
Announcement may be more restrictive. Therefore, STEP grant recipients must be held to the
terms established in those documents.

Recommendation 6 – Document and maintain all analyses, evaluations, and rationale used to
award STEP grants.

Agency Comments

According to OIT staff, all analyses, evaluations, and rationale used to award STEP grants for
FY 2011 and FY 2012 have been documented. However, the OIT plans to make these documents
more readily available.

OIG Response

We consider management comments to be non-responsive to our recommendation. The audit
team requested that OIT staff provide documentation related to the analyses, evaluations, and
rationale used to award FY 2011 STEP grants on several occasions. However, the OIT did not
respond to our requests and we concluded that the documentation had not been properly
maintained. Therefore, there is no evidence to support OIT’s assertion that it maintained
adequate documentation and this remains a potential area of weakness.

Recommendation 7 – Provide Grant Officers Technical Representative (GOTR) training to OIT
personnel acting in that capacity.

Agency Comments

According to the AA for International Trade, several OIT staff members have received GOTR
training. However, the OIT plans to provide training to all staff members that act as STEP grant
program GOTRs.

OIG Response

We consider management comments to be responsive to our recommendation.


                                           15

Recommendation 8 – Establish and implement a policy requiring GOTRs to conduct in-depth
reviews of STEP grant recipients’ quarterly submissions and provide feedback to grant
recipients.

Agency Comments

The OIT concurred with our recommendation and stated that OIT staff will establish and
implement a policy requiring GOTRs to conduct in-depth reviews of STEP grant recipients’
quarterly submissions and provide feedback to grant recipients, beginning in the first quarter of
FY 2013.

OIG Response

We consider management comments to be responsive to our recommendation. However, we

believe that these in-depth reviews should begin with the fourth quarter of FY 2012.

Grant recipients’ fourth quarter reports are due 90 days from the end of the quarter.

This timeframe coincides with the first quarter of FY 2013 and therefore, reviews should be 

conducted and feedback should be provided for both quarters.


Recommendation 9 – Consult with the Office of Grants Management (OGM) to modify STEP
grant terms and conditions to align with S!’s management of the program.

Agency Comments

The OIT concurred with our recommendation and stated that staff members have worked and
coordinated with OGM staff to address management issues. In addition, OIT and OGM have
established a weekly problem resolution meeting to ensure S!’s management of the program
is aligned with STEP grant terms and conditions.

OIG Response

We consider management comments to be responsive to our recommendation.

Actions Required
Please provide your management decision for each recommendation on the attached SBA

Forms 1824, Recommendation Action Sheet, within 30 days from the date of this report.

Your decision should identify the specific action(s) taken or planned for each recommendation

and the target date(s) for completion.


We appreciate the courtesies and cooperation of the Small Business Administration during this 

audit. If you have any questions concerning this report, please call me at (202) 205-7390 or 

Riccardo R. Buglisi, Director, Business Development Programs Group at (202)205-7489.





                                           16

Appendix I: Scope and Methodology
We conducted this audit from March 2012 to June 2012 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Congress directed the Small Business Administration (SBA) Office of Inspector General to review
the S!’s State Trade and Export Promotion (STEP) Grant Program, which was established by the
Small Business Jobs Act of 2010. One of our audit objectives was to determine the extent to which grant
recipients were measuring the performance of activities being conducted and the results of those
measurements. In addition, we reviewed the overall management and effectiveness of the STEP grant
program. To meet these objectives, we judgmentally selected all STEP grants exceeding $1 million to
review. Six grant recipients met this threshold, including the states of California, Illinois, Michigan,
Pennsylvania, Washington, and the Commonwealth of the Northern Mariana Islands (NMI). We limited
our scope because the Small Business Jobs Act of 2010 required the Office of Inspector General to
provide a report to the Senate Committee on Small Business and Entrepreneurship and the House
Committee on Small Business no later than September 30, 2012. Due to time constraints, we were
unable to review grant recipients’ FY 2011 STEP grant performance results for quarters three and four.

To achieve our audit objectives, we reviewed the Small Business Jobs Act of 2010 and the Small Business
Administration’s FY 2011 STEP Program Announcement. We also conducted site visits and obtained
documentation from grant recipients in the states of Pennsylvania, California, Washington, Michigan,
and Illinois. In addition, we interviewed SBA personnel from the Office of International Trade (OIT) and
the Office of Grants Management (OGM). We also reviewed pertinent Codes of Federal Regulation,
Public Law 111-240, and OMB Circular A-123.

Use of Computer Processed Data
We relied on the S!’s financial management system, Joint !dministrative !ccounting Management
System (JAAMS), to obtain accounts payable transactions associated with California, Illinois, Michigan,
Pennsylvania, and Washington. We reviewed these transactions in order to identify first quarter
advance or reimbursement payments made to each state.

Prior Coverage
The Office of Inspector General issued Advisory Memorandum Number 12-12, The S!’s Office of
International Trade Inappropriately Awarded a One Million Dollar State Trade and Export Promotion
(STEP) Program Grant to an Ineligible Recipient, on March 30, 2012. We reported that the NMI
inappropriately received a STEP grant valued at $1,022,781. ased on the definition of the term “state”
found in the Small Business Jobs Act of 2010, the audit team determined that the NMI was ineligible to
receive a STEP grant. As a result of our report, SBA personnel terminated grant number
SBAHQ-11-IT-0047 on March 27, 2012.




                                                   17

Appendix II: FY 2011 State Trade and Export Promotion (STEP) Grants Awarded 


             Grant Recipient                   Federal STEP Funds Awarded   Recipient Eligibility
                 California                            $2,540,924                  Eligible
               Pennsylvania                            $1,710,904                  Eligible
                Washington                             $1,591,919                  Eligible
                  Michigan                             $1,466,978                  Eligible
                    Illinois                           $1,265,477                  Eligible
Commonwealth of the Northern Mariana Islands           $1,022,781                 Ineligible
                      Ohio                              $983,399                   Eligible
                  Missouri                              $977,742                   Eligible
                   Georgia                              $973,429                   Eligible
                 New York                               $898,646                   Eligible
                 Louisiana                              $850,000                   Eligible
                 Oklahoma                               $825,733                   Eligible
                   Florida                              $780,786                   Eligible
                 Mississippi                            $752,914                   Eligible
                   Arizona                              $656,000                   Eligible
             Massachusetts                              $614,025                   Eligible
              North Carolina                            $603,442                   Eligible
                      Utah                              $584,982                   Eligible
                 Maryland                               $584,897                   Eligible
                  Arkansas                              $576,404                   Eligible
           District of Columbia                         $548,116                   Eligible
                Connecticut                             $546,822                   Eligible
                   Kansas                               $505,326                   Eligible
               Rhode Island                             $496,066                   Eligible
            US Virgin Islands                           $489,646                   Eligible
                    Hawaii                              $485,719                   Eligible
                 Minnesota                              $454,130                   Eligible
                   Virginia                             $432,099                   Eligible
                  Kentucky                              $427,843                   Eligible
                   Oregon                               $375,000                   Eligible
                 Tennessee                              $375,000                   Eligible
                      Iowa                              $370,258                   Eligible
                  Vermont                               $363,768                   Eligible
                    Alaska                              $330,000                   Eligible
                  Colorado                              $312,182                   Eligible
                 Nebraska                               $310,860                   Eligible
                  Montana                               $307,849                   Eligible
             New Hampshire                              $299,493                   Eligible
                     Idaho                              $292,000                   Eligible
                 Delaware                               $246,917                   Eligible
      Commonwealth of Puerto Rico                       $240,630                   Eligible
                   Nevada                               $239,318                   Eligible
              South Carolina                            $202,669                   Eligible
                 Wisconsin                              $162,176                   Eligible
                     Texas                              $161,711                   Eligible
                    Maine                               $146,000                   Eligible
                  Alabama                               $140,600                   Eligible
                    Guam                                $135,927                   Eligible
               South Dakota                             $116,393                   Eligible
                   Indiana                              $100,289                   Eligible
                New Mexico                              $81,000                    Eligible
                 Wyoming                                $42,686                    Eligible

                                                      18

Appendix III: Agency Comments





                                 U.S. S M A L L B U SI N E S S A DM I NI S TR A TI O N

                                               W A S HI N G T O N , D.C.
     O F F I C E O F

 I N T E R N A T I O N A L

        T R A D E



TO:                       John K. Needham, OIG
FROM:                     Dario Gomez, AA/OIT
DATE:                     September 11, 2012
SUBJECT:                  OIT Performance Audit Report on STEP Grant Program


This memorandum responds to the August 14, 2012, Performance Audit Report titled “The SBA
Needs to Improve Its Management of the State Trade and Export Promotion Grant Program”
(STEP). The report asks for written or oral comments within 30 days from August 14. This
memo responds to that request.

The Office of International Trade’s (OIT) objective for the STEP pilot Grant Program is to
increase the number of small businesses that are exporting and to increase the value of exports
for those small businesses that are currently exporting. We fully recognize that eligible
organizations may apply to SBA for awards of financial assistance to carry out exporting
programs that assist “eligible small business concerns.” And, we take very seriously the fact that
we have full responsibility for programmatic execution of the program.

We further acknowledge the full, courteous, and cooperative relationship between our office and
the Office of Inspector General (OIG) during the audit process. We believe this relationship has
led to meaningful and insightful recommendations that will improve program administration,
increase grant recipients’ financial accountability, and ultimately increase the number of small
businesses that export and increase the value of exports for businesses that are currently
exporting.

This is a list of the nine recommendations, followed by OIT’s response.

OIG Recommendation                       OIT Response

1. Meet with Congress to                 Over the past year, OIT staff has met with House
   determine STEP                        and Senate staff both in person and via
   program expectations                  teleconference to discuss STEP program

                                                          19

   for FY 2012                  expectations for FY 2012. During these meetings,
                                Hill staff has provided feedback on the STEP
                                program, its legislative history, and performance
                                expectations. Additionally, OIT staff has solicited
                                ideas on specific performance metrics the STEP
                                program should be measuring. These dialogues
                                with Hill staff on STEP program expectations have
                                informed the implementation of the program.

2. Ensure that STEP grant       OIT staff intends to modify the reporting
   recipients’ FY 2012          requirements, as necessary, during the 1st quarter
   performance measures         of FY 2013 to align the performance measures
   align with Congress’         with Congress’ expectations.
   expectations.

3. Require STEP grant           When OIT staff became award of OIG’s concerns,
   recipients to establish      OIT modified the reporting process to reflect
   and provide the SBA          accomplishments against milestones and will
   with quarterly               aggressively enforce it in the coming year.
   milestones that will
   measure effectiveness
   and efficiency on a
   quarterly basis.

4. In cases where STEP          In cases where STEP grant recipients do not meet
   grant recipients do not      established milestones, OIT staff plans to require
   meet established             grant recipients to provide the SBA with revised
   milestones, require grant    work plans to meet new performance goals. In the
   recipients to provide the    future, we will also require grant recipients to
   SBA with revised work        provide new budget estimates, as necessary.
   plans and budget
   estimates to meet
   proposed performance
   goals.

5. Hold STEP grant              OIT staff plans to research the grant regulations at
   recipients accountable       13 CFR 143 and 2 CFR 225 to comply with the
   for adhering to reporting    regulations.
   requirements established
   in the Notices of Award
   and the FY 2012 STEP
   Grant Program
   Announcement.

6. Document and maintain        OIT staff has already documented all analyses,
   all analyses, evaluations,   evaluations and rationale used to award STEP
   and rationale used to        grants for FY 2011 and 2012. However, OIT plans

                                                 20

   award STEP grants.          to make these documents more readily available.

7. Provide Grant Officers      OIT has already provided training to several OIT
   Technical                   staff. However, OIT plans to provide GOTR
   Representative (GOTR)       training to all OIT staff who are acting in that
   training to OIT             capacity.
   personnel acting in that
   capacity.

8. Establish and implement     OIT staff concurs, and beginning with the 1st
   a policy requiring          quarter of 2013, OIT staff plan to establish and
   GOTRs to conduct in-        implement a policy requiring GOTRs to conduct
   depth reviews of STEP       in-depth reviews of STEP grant recipients’
   grant recipients’           quarterly submissions and provide feedback to
   quarterly submissions       grant recipients.
   and provide feedback to
   grant recipients.

9. Consult with the Office     OIT staff concurs. OIT staff has worked and
   of Grants Management        coordinated with the OGM staff on management
   (OGM) to modify STEP        problems. Also, OIT and OGM have established a
   grant terms and             weekly problem resolution meeting to ensure
   conditions to align with    SBA’s management of the program is aligned with
   SBA’s management of         STEP grant terms and conditions.
   the program.


In summary, our office greatly appreciates the opportunity to work with the Office of the
Inspector General to improve program management so that we can increase the number of small
businesses that export and to increase the exports of those small businesses that already export.

If you have any questions, please do not hesitate to contact Arthur Collins of my staff at 205-
6285.




                                                21

                        U.S. S M A L L B U SI N E S S A DM I NI S TR A TI O N
   OFFICE OF
 INT ERNATIONAL
      TRADE                          W A S HI N G T O N , D.C.
TO:             John K. Needham
                Assistant Inspector General for Auditing

FROM:	          Dario J. Gomez
                Associate Administrator, Office of International Trade

DATE:	          September 14, 2012

SUBJECT:	       Supplemental Response to the OIT Performance Audit Report on STEP Grant
                Program


      This memorandum is intended to supplement the Office of International Trade’s (OIT)
September 11, 2012, response to the August 14, 2012, Performance Audit Report titled “The
SBA Needs to Improve Its Management of the State Trade and Export Promotion Grant
Program” (STEP).

      This supplemental response addresses the Office of Inspector General’s (OIG) first
recommendation as listed below:

1. Meet with Congress to determine STEP program expectations for FY 2012.

On September 11, 2012, OIT responded to this recommendation with the following statement:

         Over the past year, OIT staff has met with House and Senate staff both in person
         and via teleconference to discuss STEP program expectations for FY 2012.
         During these meetings, Hill staff has provided feedback on the STEP program, its
         legislative history, and performance expectations. Additionally, OIT staff has
         solicited ideas on specific performance metrics the STEP program should be
         measuring. These dialogues with Hill staff on STEP program expectations have
         informed the implementation of the program.

        OIT now supplements this response with the following information. Beginning in
September 2011, SBA has made numerous efforts to communicate with Hill staffers regarding
the FY 2012 STEP program. On September 30, 2011, I met with the House Small Business
Committee regarding the STEP program. On October 27, 2011, I met with a Senate Small
Business Committee staffer where we discussed the STEP program in depth. During this meeting
the Policy Director for the Senate Small Business Committee discussed the STEP program’s
legislative history. On November 30, 2011, I met with a member of the Senate Small Business
Committee’s staff where we again discussed the STEP program in depth and the Senate staffer
suggested a Congressional panel be present at the STEP Best Practices conference to be held in
February 2012. In addition to the frequent meetings and conversations with congressional staff

                                                 22

during the fall of 2011 regarding the FY 2012 STEP program, SBA hosted a congressional panel
on STEP at the STEP Best Practices conference in February 2012. Staff members from both the
House and Senate Small Business Committees participated on a panel at that conference. On
July 20, 2012, I met with Senate and House Small Business Committee staffers to again discuss
the STEP program. On August 28, 2012, I participated in a conference call with a Senate Small
Business Committee staffer regarding the STEP program. The record of communication
between SBA and the Hill staff demonstrates SBA’s commitment to maintaining a dialogue
between the Agency and the Small Business Committees regarding the STEP program.

        Based on your recommendations, I will continue to have an open dialogue with Congress
to determine STEP program expectations for FY 2012. If you have any questions, please do not
hesitate to contact Arthur Collins of my staff at (202) 205-6285.




                                             23

